<html>
<title> - MOVING AMERICA'S INFRASTRUCTURE FORWARD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                MOVING AMERICA'S INFRASTRUCTURE FORWARD

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON CONTRACTING AND INFRASTRUCTURE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           FEBRUARY 27, 2020

                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


                               

            Small Business Committee Document Number 116-074
             Available via the GPO Website: www.govinfo.gov
             
             
             
             
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-801                WASHINGTON : 2020              
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jared Golden................................................     1
Hon. Pete Stauber................................................     2

                               WITNESSES

Ms. Lynn Frazier, Director and Senior Transportation Engineer, 
  James W. Sewall Company, Old Town, ME, testifying on behalf of 
  the American Society of Civil Engineers........................     5
Ms. Lisa Jacobson, President, Business Council for Sustainable 
  Energy, Washington, DC.........................................     6
Mr. Michael Saperstein, Vice President of Strategic Initiatives 
  and Partnerships, USTelecom--The Broadband Association, 
  Washington, DC.................................................     8
Mr. Todd Rothe, President, J.R. Jensen Construction Company, 
  Superior, WI...................................................    10

                                APPENDIX

Prepared Statements:
    Ms. Lynn Frazier, Director and Senior Transportation 
      Engineer, James W. Sewall Company, Old Town, ME, testifying 
      on behalf of the American Society of Civil Engineers.......    21
    Ms. Lisa Jacobson, President, Business Council for 
      Sustainable Energy, Washington, DC.........................    27
    Mr. Michael Saperstein, Vice President of Strategic 
      Initiatives and Partnerships, USTelecom--The Broadband 
      Association, Washington, DC................................    33
    Mr. Todd Rothe, President, J.R. Jensen Construction Company, 
      Superior, WI...............................................    39
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Letter from Associated Builders and Contractors..............    44


                MOVING AMERICA'S INFRASTRUCTURE FORWARD

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2020

                  House of Representatives,
               Committee on Small Business,
     Subcommittee on Contracting and Infrastructure
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:07 p.m., in 
Room 2360, Rayburn House Office Building. Hon. Jared Golden 
[chairman of the Subcommittee] presiding.
    Present: Representatives Golden, Stauber, and Balderson.
    Chairman GOLDEN. Good afternoon, and sorry for the delay. 
Just coming from some testimony with the Secretary of the Navy. 
So, it kept me a little bit long. But my good colleague and 
friend, Congressman Pete Stauber, I thought he was going to say 
that I owed him dinner or drinks or something for being late 
when he told me I had a text message waiting for me just now. 
But anyway, I appreciate your patience.
    Good friend. Congressman Stauber actually came to Maine, 
and I have been to his district as well. And I just point that 
out because the first person testifying, I will introduce 
today, Ms. Frazier is actually from Maine, so you can tell her 
you have been to the district.
    Well, thank you all for your patience for coming to testify 
today.
    Whether it is the roads, rails, bridges that we use to 
transport our goods, the utility systems that power our 
factories, or the telecommunications networks that connect 
consumers to businesses, maintaining America's infrastructure 
is fundamental to a robust economy and to the Nation's 
competitiveness. Historically, America's infrastructure network 
has fostered strong economies and allowed us to be both 
competitive and efficient. However, by many measures, we are 
failing to keep up with the growing demands of our modern 
society.
    Across the U.S., years of underinvestment in our 
infrastructure has resulted in crumbling roads, bridges in need 
of repair, rolling blackouts, and communities that lack access 
to high-speed Internet. Failure to invest in our infrastructure 
has serious economic consequences, including lower GDP growth, 
lost business sales, and fewer American jobs, especially for 
small businesses. Which is why we have a plan that has been 
brought forward by House Democrats in the House, a 5-year, $760 
billion proposed investment in infrastructure, the ``Moving 
Forward Framework'', and it merits attention today.
    We know that investments in infrastructure contribute both 
directly and indirectly to economic growth. Infrastructure 
investment reduces business costs, it increases consumer 
spending, and it lays the foundation for a clean energy 
economy. It is also a critical component to the success of 
small businesses and the communities they serve.
    This is especially true in the energy sector. In 2018, 
clean energy jobs totaled more than 3.26 million and nearly 
every state in the U.S. has seen an increase in the clean 
energy economy. America's small businesses have been driving 
this growth, with nearly 70 percent of clean energy employees 
working for small businesses. A commitment to investing in 
renewable energy sources, such as wind, solar, biomass, is an 
investment in our Nation's small businesses and their 
employees.
    Similarly, a robust and well-planned investment in our 
infrastructure benefits small businesses, both as end-users of 
these networks and by creating business opportunities for them. 
Let's take access to rural broadband, an issue I have been 
working on with my friend, the Ranking Member, Mr. Stauber, and 
a key component of the Moving Forward Framework. 2.5 million 
Americans, including 37,000 individuals in my home district in 
Maine, do not have access to a high-speed Internet connection. 
In fact, only 5.5 percent of households in Maine are connected 
to a fiberoptic network.
    We know that economic growth is tied to access to 
broadband--especially for small businesses. Small firms that 
have access to high-speed Internet earn twice as much revenue 
per employee, guarantee four times the revenue growth year-
over-year, and are three times more likely to create jobs.
    Finally, I think we all agree that we need to enact 
policies that create jobs right here at home, and we know that 
small firms dominate sectors of the economy, such as 
construction, manufacturing, and engineering. These small 
businesses play in integral role in upgrading our roads, ports, 
bridges, airports, and electrical grids. In fact, 61 percent of 
the jobs directly created by infrastructure spending would be 
in the construction sector, and 12 percent in the manufacturing 
sector. These would be high-paying jobs on Main Street that 
cannot outsourced.
    While there are many details to discuss, it is my hope that 
today's hearing can help identify how investments in 
infrastructure, especially in surface transportation, clean 
energy, and rural broadband, will benefit small businesses and 
the economy overall.
    And with that I thank each of the witnesses for joining us 
today. I look forward to your testimony.
    And I will now yield to the Ranking Member, Mr. Stauber, 
for an opening statement.
    Mr. STAUBER. Thank you very much, Mr. Chair, for holding 
this timely hearing on an important issue which is our Nation's 
infrastructure.
    Businesses and families across America rely on increasingly 
complex transportation systems, electric grids, and Internet 
networks to stay connected and competitive. As a member of this 
Committee and the House Transportation and Infrastructure 
Committee, I am keenly aware of the significant impacts of even 
the smallest disruption to these systems.
    Communities across the country look to us as their elected 
representatives to advocate for local projects. Earlier this 
month, the United States Department of Transportation approved 
a $10.5 million grant to the Duluth Seaway Port Authority to 
help fund the Duluth Port Logistics Hub 2020 Revitalization and 
Expansion Project, which will repair terminal components and 
enhance capacity for both domestic and international shipping. 
These improvements will bring significant savings and market 
opportunities for local small businesses, especially those in 
manufacturing and agricultural industries.
    In addition to repair projects, many communities across the 
country are waiting for the installment of broadband networks. 
Once considered a luxury, broadband is now a critical component 
of modern infrastructure. Last year, you and I, Mr. Chair, held 
a hearing in Scandia, Minnesota, to hear from rural small 
business owners challenged by unreliable access to broadband. 
You and I realize that rural people living in Maine and rural 
folks in Minnesota share the same burdens and have since worked 
together to explore Federal strategies to bridge that digital 
divide.
    The health of our Nation's infrastructure impacts us all 
regardless of geography or political affiliation. Our shared 
experience has inspired bipartisan sentiments, but it is time 
for us to take action and make desperately needed repairs and 
reforms.
    I appreciate all the witnesses being here today, especially 
Mr. Rothe, who hails from the great 8th District of Minnesota. 
And I look forward to hearing your remarks. You are all an 
integral part in helping us ensure the government is helping, 
and not harming, our small business community.
    Thank you, Mr. Chair, and I yield back.
    Chairman GOLDEN. Thank you. The Ranking Member and I both 
agree that this is a very bipartisan issue. Everyone knows that 
this is something that needs to be done. Even people who are 
not even the slightest bit political at all.
    With that, I want to take just a quick minute for everyone 
who is testifying to explain timing rules. Each of you will get 
5 minutes to testify. The members will then get 5 minutes for 
questions. There is a lighting system to assist you. I am sure 
someone has gone over this with you, but sometimes we forget. 
So, if you see someone waving at you, you have probably failed 
to turn on the button in front of you so that your microphone 
is on. The green light will be on when you begin. A yellow 
light comes on when you have 1 minute remaining, and the red 
light comes on when you are out of time, and we ask that you do 
the best that you can to stay within this timeframe.
    And now I would like to introduce witnesses.
    Our first witness is Ms. Lynn Frazier. She serves as the 
director and senior transportation engineer for the James 
Sewall Company, a 138-year-old integrated multidiscipline 
consulting firm providing services to government, energy, and 
utilities and the forest products industry in Old Town, Maine. 
Ms. Frazier currently sits on the board of the Maine Chamber of 
Commerce and is a past-president of the American Society of 
City Engineers in Maine. She holds her undergraduate degree 
from the University of Maine.
    Welcome, Ms. Frazier.
    Our second witness is Ms. Lisa Jacobson. She is the 
president of the Business Council for Sustainable Energy, a 
trade association representing energy efficiency, renewable 
energy, and natural gas industries. In this capacity, she 
advises states and Federal policy makers on energy, tax, air 
quality, and climate change issues. She is also a member of the 
Department of Energy's State Energy Efficient Steering 
Committee and the United States Trade Representatives Trade and 
Environment Policy Advisory Committee. She holds an 
undergraduate degree from the University of Vermont, and a 
master's degree from the London School of Economics.
    Welcome, Ms. Jacobson.
    Our third witness today is Mr. Mike Saperstein.
    Did I get this correct? Very good.
    He is the vice president of Strategic Initiatives and 
Partnerships at U.S. Telecomm, a trade association representing 
telecommunications-related businesses in the U.S. In his role 
he focuses on new and emerging technologies amid a shifting 
regulatory landscape. In his previous role as vice president of 
Policy and Advocacy, he worked to promote broadband 
infrastructure projects, such as the Rural Digital Opportunity 
Fund. He received his undergraduate degree from the University 
of Notre Dame and his J.D. from the Catholic University of 
America, Columbus school of Law. Welcome, sir. Thank you for 
joining us.
    And I will yield to Mr. Stauber to introduce our final 
witness.
    Mr. STAUBER. Thank you, Mr. Chair.
    Our final witness today is Mr. Todd Rothe. He is the 
president of J.R. Jensen Construction Company. Todd has led the 
company since 2004 and has nearly 30 years of construction 
experience. And under his leadership, J.R. Jensen has grown 
from less than $5 million in annual revenue to more than $25 
million, ranking it among the largest and most successful 
contractors in our region. Todd has helped foster improvements 
at J.R. Jensen's culture that have led to excellence in safety, 
performance, and customer satisfaction. Todd earned a 
bachelor's degree in Business Administration from the 
University of Minnesota-Duluth, the best college hockey team in 
the Nation. It is a privilege to have a constituent on the 
panel today, and I appreciate you for making the journey from 
Northern Minnesota.
    Mr. Chair, I yield back.
    Chairman GOLDEN. Thank you very much.
    Ms. Frazier, you are now recognized for 5 minutes.

STATEMENTS OF LYNN FRAZIER, DIRECTOR AND SENIOR TRANSPORTATION 
 ENGINEER, JAMES W. SEWALL COMPANY; LISA JACOBSON, PRESIDENT, 
 BUSINESS COUNCIL FOR SUSTAINABLE ENERGY; MICHAEL SAPERSTEIN, 
   VICE PRESIDENT OF STRATEGIC INITIATIVES AND PARTNERSHIPS, 
 USTELECOM, THE BROADBAND ASSOCIATION; TODD ROTHE, PRESIDENT, 
                J.R. JENSEN CONSTRUCTION COMPANY

                   STATEMENT OF LYNN FRAZIER

    Ms. FRAZIER. Chairman Golden, Ranking Member Stauber, and 
members of the Subcommittee, thank you for inviting me today 
for this important discussion on the Nation's infrastructure 
and how it impacts small business.
    My name is Lynn Frazier, and I am a civil engineer based in 
Enfield, Maine, the past-president of the American Society of 
Civil Engineers' Maine Section, a member of the Board of the 
Maine Chamber of Commerce, and director of business development 
at James W. Sewall Company.
    Today, I am appearing on behalf of the more than 150,000 
members of the American Society of Civil Engineers (ASCE). I 
appreciate the opportunity to share our position on the 
importance of long-term, strategic investment in our Nation's 
infrastructure.
    Every 4 years, ASCE publishes the Infrastructure Report 
Card to raise public awareness. Unfortunately, the most recent 
report rated the overall condition of the Nation's 
infrastructure as a D+ and found an investment gap of $2 
trillion. As our infrastructure continues to age, and 
investments fail to keep pace, this national gap is only 
widening every year.
    At the state level, Maine's latest report card found that 
our infrastructure fares only slightly better than the national 
average, with the state receiving a cumulative grade of C-.
    Ranking Member Stauber, your state of Minnesota fares 
slightly better yet with their most recent report card grading 
the state's infrastructure with a C.
    Several years ago, ASCE embarked on an effort to examine 
how this persistent D average is impacting America's economic 
future. The resulting report, our Failure to Act series, found 
that failing to close our Nation's $2 trillion investment gap 
creates devasting economic impacts for families, small 
businesses, and the Nation's overall GDP.
    Simply put, this analysis confirmed what we already know 
intuitively. Water main breaks, bridge closures, road postings, 
and the occasional blackout are not just inconvenient, they are 
a drag on economic growth.
    More specifically, our economic analysis found that by 
2025, infrastructure will continue to degrade, resulting in a 
loss of 2.5 million jobs, $3.9 trillion in GDP, and $7 trillion 
in lost business sales. Additionally, our poor infrastructure 
cost American families $3,400 a year. That is $9 a day. This is 
a hidden tax that we are all paying when we do not address our 
infrastructure needs.
    In Maine, under investment in infrastructure like rail has 
economic consequences for previously prosperous papermill towns 
where economic development is desperately needed. For example, 
the region's freight connection to New York is limited to 10 
miles an hour in the Penobscot River Valley, forcing the few 
businesses in the area to ship via truck. This makes the region 
less desirable for other manufacturers, increases wear and tear 
on our roadways, and increases congestion.
    On a more positive note, over the past several years, Maine 
has made significant, strategic investments in its ports, which 
is paying dividends. Due to these investments, 6 years ago, 
Eimskip, Iceland's oldest shipping company, made Portland its 
U.S. headquarters, a move that has grown the amount of exports 
going through the port each year and created many well-paying 
jobs. And there are similar stories in every district across 
the country.
    So how can we raise the grades and curtail the negative 
economic impacts? ASCE believes that Congress should adopt 
infrastructure legislation that fixes the Highway Trust Fund, 
eliminates the cap on the passenger facility charge, puts trust 
back in the Harbor Maintenance Trust Fund, and addresses both 
resilience and the total lifecycle cost of an asset.
    Recent proposals and legislation in the House and Senate 
hit on many of those priorities and we strongly hope that they 
will result in bipartisan legislation this year.
    Unfortunately, none of these proposals seriously addresses 
the Highway Trust Fund. The gas tax has not been raised in 
nearly 30 years and its purchasing power has diminished 
significantly over the intervening years. Can you imagine 
living off your 1993 salary? It would not get us very far.
    As a result, the Highway Trust Fund will be exhausted in 
2022, grinding critical road and bridge projects to a halt.
    Therefore, over the next 5 years, ASCE recommends a 5 cent 
a year gas tax increase indexed to inflation. This proposal is 
supported by a wide coalition of groups, including the U.S. 
Chamber. To ensure the Highway Trust Fund remains sustainable 
as more electric vehicles come online, ASCE also recommends 
creating an EV tax to account for their wear and tear on 
highways.
    Finally, ASCE urges Congress to establish a national pilot 
program to better understand how a mileage-based user fee could 
be implemented in the longer term.
    In conclusion, underinvestment in our infrastructure risks 
our economic future and the quality of life of all Americans. 
It is the goal of everyone in this room to make sure America 
remains competitive in a growing global economy. But we cannot 
do that if we cannot commit to building and maintaining a 
first-class infrastructure.
    I would like once again to thank the Committee for inviting 
me to participate in today's hearings, and I look forward to 
taking your questions.
    Chairman GOLDEN. Thank you, Ms. Frazier.
    Ms. Jacobson, you are now recognized.

                   STATEMENT OF LISA JACOBSON

    Ms. JACOBSON. Chairman Golden, Ranking Member Stauber, and 
members of the Subcommittee, thank you for the opportunity to 
testify today. I would like to express the Business Council for 
Sustainable Energy's appreciation for the leadership of the 
Subcommittee and its strong bipartisan support.
    Investment in American infrastructure will improve the 
Nation's economic competitiveness, it will increase our 
national security and resilience, and has the potential to 
create tens of thousands of jobs.
    Small businesses comprise more than 99 percent of U.S. 
companies and employ over 47 percent of the American private-
sector workforce. As the clean energy economy continues to 
grow, so too will the impact of small businesses in these 
sectors.
    BCSE is a coalition of companies and trade associations 
representing energy efficiency, natural gas and renewable 
energy. The council is pleased to have an independent 
initiative under its banner, Clean Energy Business Network 
(CEBN). CEBN represents small- and medium-size businesses in 
these industries.
    Together, BCSE and CEBN represent a broad scope of the 
clean energy economy, from Fortune 100 companies to small 
businesses working in all 50 states and over 350 congressional 
districts. On a national basis, the energy efficiency, natural 
gas and renewable energy sectors support over 3.2 million U.S. 
jobs, and it is estimated that 70 percent of these jobs are in 
small businesses.
    To set the context for the policy perspectives offered in 
my testimony, I would like to present some of the findings of 
the 2020 Sustainable Energy in America Factbook. The Factbook 
is a report produced each year by the Business Council for 
Sustainable Energy and Bloomberg New Energy Finance. Now in its 
eighth year, the report released earlier this month, details 
the significant transformation of the Nation's energy sector, 
with a special look at the last decade.
    A complementary compendium from Clean Energy Business 
Network, entitled Faces Behind the Facts, highlights some of 
the small- to medium-sized clean energy entrepreneurs who are 
helping to drive this transformation.
    The 2010s was a rapid period of change in the energy 
sector, and particularly for the portfolio of energy 
efficiency, natural gas, and renewable energy.
    During the last decade, the U.S. economy experienced 
sustained economic growth, increased energy productivity, 
falling greenhouse gas emissions, and low energy costs for 
consumers. Further, in the 2010s, renewable energy and energy-
smart technologies expanded and attracted $390 billion in 
investment in the United States, with a record-breaking $55 
billion in investment in 2019 alone.
    Shifting to the Moving America and the Environment Forward 
framework, as well as other proposals put forward by the Trump 
Administration and Republicans in Congress, BCSE appreciates 
all of these initiatives' recognition of the energy system as a 
critical infrastructure asset. We also support consideration of 
climate change and resilience as part of these proposals.
    The framework we are looking at today includes many 
important areas. Specifically, (1) Siting, permitting, and 
regulatory reforms. Streamlining of siting and permitting 
processes for electric and natural gas infrastructure, 
hydropower projects, energy storage, and materials management 
is critical.
    Second, Resilient Infrastructure Investments. BCSE supports 
pre-disaster investment to enhance the resilience of critical 
infrastructure, as well as reforms to Federal regulations that 
enable projects to ``build back better.''
    BCSE has also worked at the local level in Texas and Puerto 
Rico as a partner in the Readiness for Resilience project. 
These experiences confirm our view that infrastructure planning 
and investment should consider opportunities to enhance 
resilience and support public private partnerships.
    Third, Clean Energy and Energy Efficiency Infrastructure 
Investments. The framework includes several areas to accelerate 
the deployment of clean energy technologies and resources in 
the energy, transportation of broadband and buildings sectors 
among others.
    Finally, Infrastructure Financing Tools. To catalyze the 
capital investments needed in U.S. infrastructure, Congress 
should seek to strengthen and expand existing financial tools 
and consider new mechanisms. These tools should catalyze and 
leverage private sector investment.
    Energy Savings Performance Contracts, bonding authority, 
and other tax measures should be considered. Further, programs 
should include municipal infrastructure assets. This spans 
waste, water, transportation, lighting, and energy 
infrastructure.
    The last decade has demonstrated that energy is critical 
infrastructure. Further, the U.S. energy economy is undergoing 
fundamental transformations that are powered by a robust, 
affordable, reliable, and clean portfolio of commercially 
available energy resources.
    Thank you very much.
    Chairman GOLDEN. Thank you.
    Mr. Saperstein?

                STATEMENT OF MICHAEL SAPERSTEIN

    Mr. SAPERSTEIN. Chairman Golden, Ranking Member Stauber, 
and other distinguished members of this Subcommittee, I 
appreciate the opportunity to testify at this important hearing 
on how Federal infrastructure investment can support small 
business job creation and increase connectivity in the United 
States.
    My name is Mike Saperstein, and I represent USTelecom, The 
Broadband Association, the Nation's premiere trade association 
for broadband providers, suppliers, and innovators bringing 
high-speed Internet and future-focused connectivity to 
families, communities, enterprises, and small businesses.
    USTelecom shares Congress's goal to connect every single 
American to the Internet. A meaningful infrastructure bill will 
do the following things: Support robust and targeted broadband 
deployment via direct funding; promote public-private 
partnerships; and also make regulatory changes to remove 
barriers to broadband deployment.
    By investing in America's broadband infrastructure today, 
Congress can set the foundation for generations of commercial 
growth. Many members of our association are actually multi-
generational local business with a history of entrepreneurship 
and innovation.
    Silver Star Communications, a service provider in Wyoming 
and Idaho is one such small business that traces its roots to 
1948 when they connected rural farmers via telephone wires 
riding on barbed wire fence. Infrastructure and technology may 
have changed, but today that small business serves nine rural 
counties across 17,000 square miles and was the first provider 
in the state to deliver gigabit Internet service to residential 
customers over a fiberoptic network.
    My point is this: small companies and digital connectivity 
businesses are not mutually exclusive. In fact, modern economic 
opportunity is fundamentally dependent upon access to the 
greatest American innovation of the past century, the Internet. 
With 50 percent of small businesses based out of the home, we 
have an imperative to enable the next generation of 
entrepreneurship by making sure all Americans have access to 
broadband wherever they may live or work. Broadband is as 
critical to America's global competitiveness as reliable roads, 
bridges, waters, and energy.
    With our current limited resources, we are mindful of the 
tradeoffs between investing in futureproof but more costly 
networks and ensuring that all Americans have a baseline level 
of connectivity. The $80 billion proposed in the framework for 
broadband deployment would fundamentally alter this calculation 
and provide a future proof network in many areas of the country 
where this was previously unattainable. Choosing trusted 
partners that have a history of successful broadband 
deployment, like the framework proposes, is the most effective 
way to bridge the digital divide and can be accomplished on the 
macro and micro level. The FCC, as the expert agency, has taken 
on the challenge of universal broadband service and enlisted 
the help of experienced service providers to do so.
    On a local level, we have seen communities taking 
innovative approaches to enhance their connectivity. Last year, 
the town of Brooklyn, Maine, and Consolidated Communications, 
developed a public-private partnership to share costs and 
creatively tackle broadband deployment to the coastal 
community, resulting in significantly faster and more reliable 
broadband connectivity. Federal broadband funding should be 
targeted first to the areas of the country truly unserved by 
broadband and not used to construct duplicative networks that 
overbuild a provider's existing infrastructure.
    We commend this Subcommittee for already holding a hearing 
on broadband mapping this Congress to help identify who is 
served, and more importantly, who is unserved in this country. 
USTelecom also commends the framework focus on adoption, 
digital equity, as well as the next generation 911 services so 
our emergency response networks are as accessible, efficient, 
and effective as possible.
    While direct broadband funding is critical, Congress, 
states, localities also need to focus on modernizing existing 
regulations to speed infrastructure deployment. Common sense 
but necessary reforms include better access to railroad 
crossings, just and reasonable access to utility poles owned by 
municipalities and cooperatives, and a sensible approach to 
rights of way access.
    Emerging 5G technology will drive economic growth and job 
creation in the years ahead, unleashing a wave of new 
innovation that we cannot yet imagine. Rural 5G connectivity 
cannot exist without a ubiquitous fiber network, and the faster 
we can deploy the fiber, the better. The moving forward 
framework would be a tremendous boost to our Nation's broadband 
infrastructure. USTelecom and its member companies, stand ready 
to work with this Committee, Congress, and the administration 
to continue making significant steps to close the digital 
divide.
    Thank you for this opportunity.
    Chairman GOLDEN. Thank you very much, sir.
    And finally, Mr. Rothe.

                    STATEMENT OF TODD ROTHE

    Mr. ROTHE. Mr. Chairman and honorable members of the 
Subcommittee, thank you for this opportunity Mr. Chairman and 
Honorable Members of the Subcommittee, thank you for
    this opportunity to provide my testimony about the impact 
that infrastructure spending has on my firm, J.R. Jensen 
Construction Company.
    Located in Superior, Wisconsin, we live in the border 
community known as the Twin Ports with Duluth, Minnesota. We 
employ 80 full-time, union employees. The markets we serve are 
industrial, energy, and commercial construction. Our industrial 
markets include agriculture and grain handling, such as CHS; 
mining, Cleveland Cliffs; minerals processing, Graymont; and 
transportation, including railroads such as BNSF. For the 
energy sector we build facilities for clients operating 
regional pipelines, such as Enbridge; Superior's oil refinery, 
Husky Energy; and electric power utilities, such as Minnesota 
Power.
    Our valued clients often hire us as well to perform work 
throughout the Midwest and the 12-state region. While most of 
our infrastructure work would be considered private spending, 
we have received contracts as both a prime contractor and 
subcontractor to Federal agencies, including the US Army Corps 
of Engineers, Coast Guard, and others. We have worked for a 
variety of similar state and local governments as well. So, we 
have experienced first-hand the tremendous, positive economic 
and social impacts that infrastructure brings, whether it is 
private or public. And construction firms like us rely upon a 
steady stream of projects. They are not just temporary jobs.
    People often talk about the ``ripple effect'' of such 
spending, and I can assure you it is real, and it is 
significant.
    So today I would like to share with you some examples that 
we have personally observed in our small business in Superior, 
Wisconsin. These are positive results directly connected to 
infrastructure spending. Additionally, we do make a point with 
our contracts to buy local services and buy products made in 
the United States whenever possible, which again indicates the 
indirect and broader impacts as well.
    So, construction projects are being accomplished with three 
main things: labor, materials, and equipment. I have organized 
my examples accordingly.
    1. Labor. Supporting Employees with Great Jobs. People are 
an company's greatest asset, and ours is no exception. Good 
wages, actually high-paying wages and benefits help people to 
support their families, pay their taxes, and be able to improve 
their lives. We work in a part of the country that generally 
has brutal winters, and yet, we are outdoors loving people.
    So, think of the things we buy, such as pickup trucks, both 
popular, both necessary, and common. Most of those come from 
Michigan. Snowmobiles and ATV's, there is a Polaris factory and 
an Arctic Cat factory right in Minnesota. Boats are made in 
Minnesota, the Land of 10,000 Lakes. Lund, Alumacraft, Premier 
Pontoons, all made in Minnesota. Ice Castle fish houses for 
this time of year made in Montevideo, Minnesota. Campers, 
trailers, and RV's come from Northern Indiana.
    So, the list of things that people buy goes on and on, and 
each of these I have mentioned contains steel. Mining in 
Northern Minnesota not only provides great jobs; it continues 
to produce the iron ore needed to make the steel that end up in 
these products.
    Proposed mines such as PolyMet and Twin Metals are on the 
table now and trying to get permitted. Those are needed and 
important. Minnesota has one of the largest deposits of copper 
and nickel needed to safely and responsibly mine and use these 
important minerals. The green economy needs these minerals to 
make solar panels and windmills and copper wiring, tubing, 
catalytic converters, batteries, and more. Why should these 
minerals not come from the United States?
    Spending on materials and supplies is the second component 
of projects. So, for many of our projects, materials are the 
largest part of the budget, and these purchases create big 
impacts.
    Wood and lumber, forest products industries; steel, rebar, 
piling, pipes, structural beams, plates, you name it, mines. 
Benefitting mines and U.S. steel mills, scrap recyclers.
    Pre-engineered metal buildings are made in Butler 
fabrication plants throughout the U.S. Concrete and cement 
plants, all their raw materials from places such as Alpena, 
Michigan. Asphalt for roads and highways; fuel for vehicles and 
equipment, all produced by local by local refineries. The list 
goes on including all the temporary utilities and power and 
water and various things like that.
    The last one being spending on equipment. Companies like 
ours have to invest in equipment to stay competitive and 
productive. So, think of major American manufacturers, 
including John Deere, Caterpillar, and even Minnesota's Bobcat.
    Section 179 allows these attractive tax rules to better 
plan and make these purchases, so we thank you for that. It is 
working.
    And then, finally, if we meet our budget, the project 
yields a profit. And this is a bad word to some people, but 
anyone in business knows that it exists and without it, we will 
not survive. Our firm has been successful. That allows us to 
give back to the community. So, we upgrade equipment, reinvest 
our profits, all this to better serve our clients, improve what 
we do, and make sure we continue to offer a great environment 
for our people to work.
    I think you have a good example there.
    In conclusion I think, you know, let's work together in 
moving America's infrastructure forward, and I hope I have 
demonstrated it is a truly significant means toward a larger 
goal of moving American forward. Thank you.
    Chairman GOLDEN. Forest products, harsh winters, 
snowmobiles and ATVs, that sounds familiar.
    Mr. STAUBER. Hockey.
    Chairman GOLDEN. Hockey as well. That is right. University 
of Maine; right? You played hockey there.
    Mr. STAUBER. And we beat them. Yep.
    Chairman GOLDEN. And you won.
    We are going to move to questions now. Thank you all very 
much for your important testimony.
    I will start with 5 minutes myself.
    Ms. Frazier, I sat on the Transportation Committee in 
Augusta. We had people talk about a $160 million highway budget 
shortfall in the state coffers with a plan in the last 
administration to try and bond our way out of it, $100 million 
at a time over 10 years and that would not even fill the gap. 
We decoupled from inflation adjustments years ago losing tens 
of millions of potential dollars to invest and politically 
people are just I think scared to have this conversation, even 
though organizations like the Chamber of Commerce and Maine 
Motor Transportation Association, I am sure the American trucks 
as well are talking about the need to address the revenue side 
of things. I feel like as a general strategy it was lacking to 
bond because now, we are paying interest, right, rather than 
just paying for it upfront. It is actually more expensive, just 
kind of kicking the can. So hopefully we can find the will to 
do something here.
    But I did want to ask you a little bit about freight rail, 
which you brought up. Ten miles per hour, I am well aware of 
that in the Penobscot River Valley. Huge problem. But freight 
rail all over the state lacking in a big way.
    Do you have any idea what the dollar figure is to try and 
get us competitive, or any examples of specific businesses that 
have been hurt as a result of the lack of investment?
    Ms. FRAZIER. Yes. So interestingly, a lot of the freight 
rail portions are privately owned, so it is not even as much of 
a funding gap that is the problem; it is a policy discussion 
that needs to be had. And letting people know where our 
priorities are and that we need to work with them, and if it is 
providing matching funding, to just get those rails and let 
them know that it is important to us.
    As far as businesses being affected, I live in Enfield, and 
not so long ago, I think April of last year a large train with 
a full load of timber tipped over right near the main roadway 
so, you know, the road was closed. It just disrupts everything. 
And it is not like they were going more than 10 miles an hour, 
so.
    Chairman GOLDEN. Yeah, no, it is a big problem. I 
appreciate that very much.
    And there are tax credits and things, but obviously, a 
conversation needs to be had.
    Ms. FRAZIER. Definitely.
    Chairman GOLDEN. Some of those people are not stepping up 
and we have got to find a way to do more.
    Some people talking to me recently in Maine about the idea 
of building a facility at the airport in Bangor where they 
could house lobsters coming off the coast so that we could be 
quicker to market, you know, those types of potential projects 
at airports. What do you think?
    Ms. FRAZIER. I think that is great. Yeah. Anytime we can 
leverage private funding to help with that and really boost our 
economy and export our goods, sure.
    Chairman GOLDEN. Yeah, I appreciate that feedback.
    Just moving on real quick, Ms. Jacobson, you said that 
Maine ranks fourth in the country in percentage of instate 
energy generated from renewable energy, yet we rank almost last 
for total energy generation as a state. Very oil dependent. You 
know, we are happy that we are doing things like solar, wind, 
and others. But you talk a little bit about natural gas as 
well. We have a bit of an infrastructure problem there. I just 
want to get your thoughts on how we could do better in terms of 
energy generation without hurting that. I mean, it is very nice 
to be number four in producing renewable energy right at home. 
So, what can we do?
    Ms. JACOBSON. Well, I commend you on that and, you know, 
our data also shows I think over 77 percent of your generation 
currently coming from renewable energy. Also, do not forget, 
energy efficiency, you ran very high in terms of energy 
efficiency, utility spending, as well as benchmarked against 
the rest of the country. And that is really where I would start 
my remarks. It is really about a portfolio. BCSE focuses on a 
portfolio of efficiency natural gas renewables but we have to 
look beyond that storage, new technologies. And then the 
optimization of our energy system which I know you this 
Committee is a big proponent of, and you are as well.
    In terms of what drives more instate or intra-region 
generation, it comes to this confluence of policy, markets, 
cost. And one thing that I would highlight that I think that 
Maine could continue to build on, a trend that is happening 
throughout the country, is corporate and city-level involvement 
in energy decision making because of the information technology 
and public awareness and a drive for sustainability, local 
communities as well as the private sector are asking for a 
clean portfolio of energy choices. So that is an opportunity 
for local businesses to request the energy that they would like 
to see provided to them. So, there is a partnership opportunity 
with utilities and state policy makers.
    But in terms of infrastructure, you are exactly right. I 
mean, one of the biggest trends over the last decade has been 
reduced greenhouse gas emissions throughout the country and 
that is because of shifting to cleaner fuels like natural gas. 
In New York, we have an infrastructure problem, and that is, 
again, a local, as well as state and Federal challenge.
    Chairman GOLDEN. Thank you very much.
    There has been a lot of talk about that challenge, a big 
bottleneck problem we have in New England.
    So, I will hand it off to the Ranking Member. I do not want 
him to miss asking questions if votes are called.
    Mr. STAUBER. Thank you, Mr. Chair.
    Mr. Rothe, I appreciate your astute observation for the 
need of steel as we make investments into our critical 
infrastructure. And as both you and I know, Northern Minnesota 
is home to the largest iron ore mine in North America and sits 
on the largest nickel copper reserves in North America as well.
    Mining in Northern Minnesota, we mine under some of the 
strongest labor and environmental standards, and it is critical 
to use U.S. steel in our repair of our infrastructure in our 
roads and bridges. And to that end, how will the high potential 
for high-paying mining jobs benefit communities in the Twin 
Ports and throughout Northern Minnesota?
    Mr. ROTHE. Well, the reality with mining is very similar to 
other sorts of investments. It is just that there is a big 
ripple effect of the mines themselves with the high-paying jobs 
of the people they employ, the magnitude of the equipment 
purchases they buy. There is even some other stuff they use. 
And repairs they make also employ many union tradespeople that 
similarly work for companies like ours to keep those plants 
operating. So----
    Mr. STAUBER. Go ahead.
    Mr. ROTHE. You know, in the Twin Ports more specifically, 
all of the shipping of the Tacket A pellets come through the 
Duluth/Superior and Two Harbors area.
    Mr. STAUBER. Right.
    You know, we have talked about, Ms. Jacobson, you talked 
about the renewable energies and what have you. So, where Mr. 
Rothe and I live, those copper nickel reserves, we want to 
supply the copper for the windmills. And the nickel and cobalt 
for the electric batteries. And we want to be able to mine it 
in Minnesota with the strongest labor standards and the 
strongest environmental standards and not countries that do not 
have our best interest at heart. We are fighting in Minnesota 
to give you and give us the opportunity to grow our renewables. 
I would much rather get those minerals from our home state of 
Minnesota than from other governments, such as China. The steel 
dumping, this administration stopped the steel dumping which 
was cheap and brittle steel to the best made steel in the 
world. We want the renewables made out of those minerals that 
we can extract. And I want you in Maine and Vermont and other 
states to understand what we are fighting for in Minnesota. Mr. 
Rothe is on the cutting edge of that.
    And with that being said, I want to switch gears, Todd, to 
your Federal Government procurement process for your small 
business. You know, when you work with the Federal Government, 
what barriers to the efficiency have you faced? And then what 
certain regulations did you find really burdensome and more 
difficult to overcome as a small business during the 
procurement process?
    Mr. ROTHE. The contracts we have had have, you know, had a 
fair amount of regulatory aspects to them. You know, each one 
of them creates its own little silo of a problem. So, I cannot 
think of anything that specifically is a real barrier except 
for the fact that the quantity. So, the magnitude becomes more 
of the issue and it becomes, you know, frankly sometimes we 
just simply do not chase after government contracts because of 
those requirements. We have a hard time, for example, in our 
company, meeting various diversity requirements and things like 
that. Some of those are more common in some of the state 
contracts and even some of the university contracts. So, it is 
almost like either mandated hiring or mandated percentages or 
all of these sorts of thresholds like that can sometimes be 
pretty difficult for a small company like ours.
    Mr. STAUBER. And I think that both Chairman Golden and I, 
when you made the statement that sometimes you will not even 
chase those contracts because of the redundancy and the 
duplication, for a small business that is not what we need to 
hear. We have a job to do and we have heard this enough over 
and over. We want our small businesses to be the engine of our 
economy, and to hear you say that it is a green light for 
change for us, Mr. Chair.
    And with that, I will yield back.
    Chairman GOLDEN. Thank you. I appreciate it.
    Next, we are going to recognize the Ranking Member of the 
Subcommittee on Innovation and Workforce Development, 
Representative Troy Balderson from Ohio's 12th.
    Mr. BALDERSON. Thank you very much, Mr. Chairman. Thank 
you, panel, for being here today.
    My first question will be directed to Mr. Rothe and Mrs. 
Frazier. As a member of the Transportation and Infrastructure 
Committee, one of my infrastructure priorities is streamlining 
the project delivery and permitting process at the Federal 
level to maximize limited resources and reduce bureaucratic red 
tape.
    Last week, I held a Transportation and Infrastructure 
roundtable in my district with local stakeholders, including 
the Ohio Department of Transportation, local construction 
businesses, county engineers, and more. One topic that came up 
was support for streamlining unnecessary or complex regulations 
that hinder project development. From your own experiences, 
what Federal regulations can Congress update, reform, or 
eliminate to yield better results for taxpayer investment in 
infrastructure?
    And Ms. Frazier, you may start first.
    Ms. FRAZIER. Well, ASCE supports streamlining as long as 
the environment is protected, and certainly from my personal 
work experiences, just having a standard that is in place and 
followed, that we know what to expect. I mean, if there are 
permits that we can obtain and we know there is a 6-month 
review period and we can plan on that, but if we are modifying 
a permit, there is no set review period. That makes businesses 
really nervous to not have a plan in place. So, I think there 
is a lot we can do to streamline and really set expectations.
    Mr. BALDERSON. Mr. Rothe?
    Mr. ROTHE. I would echo those statements, as well as just 
saying the unpredictability sometimes of the processes is as 
big a problem as the processes themselves. And we've faced some 
severe issues in the State of Minnesota with getting our Line 3 
pipeline permitted. Even though that's not a Federal project 
review per se, but it's an example of things gone amuck with 
the level of challenges and court challenges. And we, in 
Minnesota, have a state department going after, basically suing 
the Public Utilities Commission and challenging rules there. 
So, things like that create delays, cause major problems for 
projects in general to get them built.
    Mr. BALDERSON. Okay. I was just looking to see if there is 
something specifically that we in Congress can address, but I 
appreciate both your answers. And if you do think of something, 
please let our office know.
    My final question, just time permitted here wise, as the 
Chairman said, as Ranking Member of the Workforce and 
Innovation Subcommittee, I am dedicated to closing our 
workforce gap and it is something that has been a passion of 
mine for 20-plus years. In your opinion, what more can be done 
to ensure that the industry has an adequate supply of trained 
workers?
    And anybody from the panel can answer that question.
    Mr. SAPERSTEIN. Thank you for the question.
    So certainly, in the communications industry it is enabling 
a whole new generation of industries, particularly as broadband 
access comes online. And I think actually access to broadband 
is the thing that we need to make sure that a whole new 
generation of workforce is enabled. Without the basic access to 
that infrastructure, you cannot do your homework these days, 
let alone advance in your career. So, having the broadband 
access, and having the tools to adopt it and understand the 
adoption and how important that is is critical to our future 
development.
    Ms. JACOBSON. I will comment briefly. From the energy 
sector, understanding the change and the changing needs of our 
workforce is one aspect, but we also have I think one in five 
current employees slated to retire in the next decade when you 
look at the utility sector in particular. So, there is a huge 
opportunity here for family-supporting jobs, careers, and very 
exciting opportunities to intersect with all the infrastructure 
sectors of the U.S. economy. Energy is not just energy alone. 
It is connected to everything around this table. So, what we 
focus on is workforce training and public-private partnerships. 
And the industries that I work for, making this more of a 
priority, but there is clearly a role for the Federal 
Government, and I know in your Committee and this Committee, as 
well as in Energy and Commerce, there is a lot of focus on 
specific legislation that would help foster those partnerships 
in a more robust way. And I think we also have to look at the 
needs of those potential employees. Making sure they have 
support so they can take advantage of the training programs 
when they do exist.
    Mr. BALDERSON. Thank you very much, Ms. Jacobson.
    I yield back, Mr. Chairman.
    Chairman GOLDEN. I think we are going to do another round 
of questions. I know I have got one about broadband, but I am 
going to first let Mr. Stauber go. I know you might have some 
as well.
    Mr. STAUBER. Thank you, Mr. Chair.
    To Mr. Rothe again. You talked about the redundancy and the 
Federal regulations, the duplicative part of them. Would you 
like to talk about two specific industries in Minnesota that 
can help small businesses? We have a replacement pipeline 
project, and we have the first permitted copper nickel project. 
Can you tell the members here the length of time it took to get 
those permits? And you can start with the copper nickel.
    Mr. ROTHE. Well, when I joined J.R. Jensen, which was in 
the year 2004, and purchased the company since then along with 
a partner I had at the time. And I remember it was '04 or '05 
when PolyMet was starting and anticipating within 2 or 3 years 
to have their permits. So, if that explains it, that was 16 
years ago.
    Mr. STAUBER. They are into their 16th year for permitting. 
Sixteen years. And then how about the replacement of a Line 3 
we call it in the State of Minnesota. How long has that been 
going on for a replacement?
    Mr. ROTHE. That has been going on at least 5 years. And 
interesting, you know, Wisconsin has similar requirements for 
pipeline projects, but the 13 mile stretch in Wisconsin was 
built and completed 2 years ago. And I would also point out 
that the entire Nation of Canada from North of Edmonton and 
Alberta area down to the Minnesota border is also now completed 
and I believe put into service.
    Mr. STAUBER. Which has stopped good paying union jobs.
    Mr. ROTHE. That is correct.
    Mr. STAUBER. Family wage jobs. And for a commodity that we 
use every day.
    I just want to switch gears, Mr. Chair, if I could.
    Mr. Saperstein, you talked about rural broadband, and you 
made a very interesting comment. You talked about the 
investment from rural Minnesota into the metro. Can you give 
the Chair and I some type of idea how we can convince those 
members of Congress? There are more of them that represent the 
Metro or the areas that are heavily populated. If you were in 
our shoes, how would you convince the metro legislators on 
working from rural in?
    Mr. SAPERSTEIN. Sure. And thank you for the question.
    I think economic growth would be the way that I would go 
about doing that. And the moving forward framework does this 
because it invests in a robust fiber-fueled broadband 
infrastructure throughout our Nation.
    So the more people that come online, not only do you have 
the construction projects that are going to fuel the fiber 
development because we are going to be stringing miles and 
miles of fiber as a result of this, but you also have all of 
the spillover benefits. You have a 5G economy that is going to 
come online as a result of this that is going to unleash who 
knows what when it comes to economic potential. But I can tell 
you this, that if the rural areas are not connected, they are 
not going to be a part of that. And so that is why we commend 
the Committee for looking at this moving forward framework. And 
think about all of the economic opportunity. You know, 50 
percent of home businesses, over 50 percent are women owned. So 
that brings another generation of potential entrepeneurs into 
the workforce. So, the economics compel us to invest in our 
broadband infrastructure today.
    Mr. STAUBER. That is music to both of our ears. That is 
critically important.
    Both the Chair and I held broadband meetings in rural 
communities and that is exactly what they said, do not forget 
about us. Our rural hospitals, our rural schools are just as 
important, and we need to protect that.
    I am going to make a final statement, and I am going to 
attribute this statement to Neel Kashkari. He is a member of 
the Federal Reserve out of Minneapolis. He and I were talking 
about this subject, about rural broadband, and he made this 
statement. He said, at some point in the government's history, 
they made the decision that every mailbox mattered. Every 
mailbox mattered. And I equate that to every household matters, 
whether you are in Grand Marais, Baudette, Minnesota, or 
Willmar, Minnesota, rural areas, they matter. And I just really 
appreciate, I can tell your enthusiasm for it because Jared and 
I, Mr. Chair and I are all over this to be able to make sure 
that rural broadband, it is not a luxury anymore. It is a 
necessity for people. It is a necessity for small businesses to 
move out to rural America and live our quality of life. And I 
appreciate your enthusiasm.
    And Mr. Chair, thank you to all the witnesses, and I 
appreciate the extension of the time.
    Chairman GOLDEN. Of course. Thank you very much.
    Something you might not know about Maine, we actually 
passed a law in the state legislature having to do with mining 
that was widely believed to set the standard for labor and 
environmental protections along with mining. So, something for 
you to look at in your work in Minnesota. And I think the point 
is taken, 5G, these iPhones that everyone is dependent upon 
these days, solar panels and others, all involving minerals, 
very important.
    I am going to probably wrap it up here with just a few more 
questions starting with broadband. One of the issues that we 
have talked about here in the Committee had to do with mapping. 
Recently, the FCC approved a Rural Digital Opportunity Fund. 
They would go ahead and use reverse auctions to disburse about 
$20 billion over 10 years for broadband. And I am glad that the 
FCC is going to support this rural broadband infrastructure 
investment, but I do have some concerns. And I will start with 
the fact that they are looking at frontloading the bulk of the 
funding in the first phase before the FCC's planned update to 
its broadband maps will be ready. We have found in the 
Subcommittee and in our hearings and in our work around the 
country really, that the mapping data is just very inaccurate, 
and it is a big problem. So, of course, I am concerned that 
they are going to make the bulk of their investment in areas 
that may very well already be served and leave out the 
communities that are most greatly underserved. And I wanted to 
ask your opinion about this. Is this something Congress should 
be looking into? What can we do to make sure the investment is 
made where it needs to go?
    Mr. SAPERSTEIN. Sure. And thank you, Chairman, for the 
question.
    So, we commend Congress for taking a hard look at the 
broadband mapping because we, too, at USTelecom have done a 
deep dive into this. In fact, we sponsored a pilot project, the 
Broadband Mapping Initiative to take a look at what are the 
hidden unserved pockets out there? And people who may live next 
to a served house may find themselves observed and it creates a 
situation where it is hard to figure out exactly where the 
service needs to go.
    The Rural Digital Opportunity Fund that you mentioned I 
think does one thing important. You mentioned that the FCC has 
taken a step to improve their broadband mapping. In the 
interim, the first phase of the Rural Digital Opportunity Fund, 
it focuses on the areas that are completely unserved. So, we do 
not have to worry about overbuilding at that step. At 
USTelecom, one of the things that we said to the FCC in 
particular was that the number of hidden unserved Americans may 
be very high. And so, we have asked, and I think the FCC 
committed in their most recent order to reevaluating the budget 
for phase two if, indeed, the maps show that the number of 
truly unserved is higher. So, we are appreciative of that.
    Chairman GOLDEN. Thank you very much for that.
    I also wanted to ask, Ms. Frazier, high-priority 
infrastructure needs in Maine. You advise a lot of different 
people around the state, different businesses. What do we need 
most in Maine? It's a very open-ended question.
    Ms. FRAZIER. Yes, it is.
    I think we most need reliable funding so that we can create 
a strategic plan and best decide where to put those dollars. I 
mean, right now our DOT commissioner said our 3-year plan is 
really a 2-year plan worth of projects but that is all we can 
afford. So, we need to understand what reliable source of 
funding is coming and then choose our priorities for there. Of 
course, roads are the most visible and bridges. So that would 
be my vote.
    Chairman GOLDEN. Point well taken. Before the commissioner 
of the Main DOT can make a good plan like that, he needs to 
know what the feds are going to do as well.
    Ms. FRAZIER. Exactly.
    Chairman GOLDEN. We are all going to continue to be 
optimistic about Infrastructure Week actually occurring. That 
would be an important move. Which is why we have had the 
hearing.
    I will just throw out one last question for you, Ms. 
Jacobson. You talked in your plan about the last 10 years of 
renewable energy. What do you want to see most? What is the 
most important investment for the next 10 years of renewable 
energy?
    Ms. JACOBSON. Well, I think it really does involve public-
private partnerships. I mean, what has dominated the last 10 
years and maybe mostly in the last 5 years is what I described 
earlier, is corporate procurement of renewable energy of all 
resources. And I think as many companies, and certainly in 
Minnesota and in Maine, you have companies that are looking to 
procure clean energy and more and more and more of it. But 
nationally, last year in 2019, it was about 18 gigawatts of 
corporate PPAs signed, and you know, that represents just about 
half of the demand for renewable energy nationally in a given 
year. I mean, the projects do not happen in the same time 
period, but it is a forward-looking signal. So, I think we need 
to have continued opportunity for research, development, and 
deployment from the Federal Government. We need to look at 
sensible tax policy which has really fueled renewable energy 
deployment and cost reductions, and we have to focus on the 
private sector. What does the private sector need to get access 
to clean energy?
    Chairman GOLDEN. Thank you very much.
    On that final note, we have some important tax credits that 
we did not take action on to extend some of these investments 
in renewable energy, so hopefully something Congress can work 
together on as well in 2020.
    I want to thank you all again for your testimony and a 
great conversation. I think we do it a little bit differently 
on this Subcommittee sometimes. It is an open-ended 
conversation between all of us. So, thank you for joining us.
    Just as a closing statement, investments, what we have 
heard today, there are obvious investments in our 
infrastructure. Just a great opportunity to help small 
businesses grow, not just in Maine and Minnesota but over the 
entire stretch of the country.
    Pete, what do you think?
    Mr. STAUBER. Thank you, Mr. Chair. And as we wrap it up, I 
really appreciate your testimony. Each one of you spent some 
time and money and energy to get here. While your testimony was 
going on, I hope you saw us just nodding. We are all in the 
same boat here. I just really appreciate what you are saying. 
It affirms, it reaffirms what we are hearing in our districts 
and across the Nation. Our hearing in Maine, Ms. Frazier, we 
heard the same thing as we did in mid-Minnesota. The same 
concerns from the small business owners, the men and women who 
own a small business who are the engine of our economy; right? 
So, I think this is an issue that we can tackle and there are 
so many nonpartisan or bipartisan issues that we can work on in 
Congress and these are certainly many of them. So, I want to 
thank each and every one of you for your time.
    Chairman GOLDEN. Let me go and ask unanimous consent that 
members have 5 legislative days to submit statements and 
supporting materials for the record.
    And without objection, so ordered.
    Thank you very much. I appreciate it.
    [Whereupon, at 14:08 p.m., the subcommittee was adjourned.]
    
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            



                                 <all>
</pre></body></html>
